               Peer-to-Peer Commerce
          and the Role of the Postal Service




                            January 14, 2013




Prepared by U.S. Postal Service Office of Inspector General
            Report Number: RARC-WP-13-005
U.S. Postal Service Office of Inspector General                                                  January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                         RARC-WP-13-005



                               Peer-to-Peer Commerce
                          and the Role of the Postal Service


                                         Executive Summary

Peer-to-peer commerce is a large and growing segment of retail e-commerce, which
had overall estimated revenues of $200 billion in 2011 and is expected to grow more
than 60 percent through 2016. 1 Peer-to-peer commerce empowers individuals to buy
and sell new and used goods to each other, as well as to rent private vacation
properties and cars, and to procure other services up the street, across town, or around
the world. Individuals may transact directly with each other after making initial contact
through a facilitator or potentially by linking through social networks. This creates a
“virtual bazaar.”

Many postal services are already used in peer-to-peer markets, and the U.S. Postal
Service has opportunities to further grow these and develop line extensions. The Postal
Service is positioned to play a positive role in filling market gaps, focusing on
complementary support services. Peer-to-peer commerce requires confidence in the
parties involved, yet buyers and sellers are likely unknown to each other even indirectly.
The Postal Service can expand its reputation from traditional services into peer-to-peer
digital transactions. The Postal Service's reputation includes a high level of trust it has
embodied over more than two centuries.

Peer-to-peer markets are immature and changing rapidly. Market participants, including
facilitators, face the challenge of balancing convenience, privacy, and the risk of
potentially becoming victims of financial crimes and physical violence. Despite ongoing
market attempts to address these issues, many shortcomings and challenges remain
that can discourage participants and slow the growth of innovation and commerce.

One of the key challenges for both buyers and sellers in peer-to-peer markets is
maintaining the option of keeping anonymity while demonstrating their authenticity in
transactions and having confidence that the other party is legitimate. A Postal Service
digital identity and authentication service would help ameliorate these fears and
increase trust in overall market transactions. 2 Additionally, a Postal Service trustmark
for e-businesses would indicate that the identity of market participants has been vetted
or authenticated. This would raise the reputation capital of sellers and, in turn, increase
the confidence of buyers.

1
  Sucharita Mulpuru, US Online Retail Forecast, 2011 to 2016, Forrester Research, February 27, 2012. Rachel
Botsman, co-author of What’s Mine Is Yours: The Rise of Collaborative Consumption, projected in 2011 that renting
and sharing could ultimately be a $110-billion or more market as described by Danielle Sacks, “The Sharing
Economy," Fast Company, April 18, 2011, http://www.fastcompany.com/1747551/sharing-economy.
2
  See U.S. Postal Service Office of the Inspector General, Digital Identity: Opportunities for the Postal Service,
Report No. RARC-WP-12-011, May 29, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-011.pdf.




                                                         i
U.S. Postal Service Office of Inspector General                                                     January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                            RARC-WP-13-005


The Postal Service could also provide related protections and assurances for parties in
such transactions, including an electronic extension of its Collect on Delivery (COD)
service — Digital COD. Another offering could be a Digital Escrow service. The two
services would be similar, but offer different options to buyers and sellers. These new
services could be used in combination with current services, such as insurance and
digital currency payment options. 3
        Digital COD would involve the Postal Service acting as an intermediary to ship
         and deliver the product ordered and take payment from the buyer upon the
         buyer's receipt of the product. The Postal Service would transmit payment to the
         seller electronically, via credit or debit card, money order, or possibly digital
         currency from the Postal Service, less a commission. This service would help
         avert buyer anxiety over paying for an item that is subsequently delayed in
         shipping, a complaint of some peer-to-peer customers, or even worse, not
         shipped at all.
        Digital Escrow would be a fee-based service in which, upon purchasing an item
         or service, the buyer would place payment in a protected escrow account held by
         the Postal Service. Upon receipt and acceptance of the item (or service), the
         buyer would authorize release of payment by the Postal Service to the seller. If
         the item is received broken or the buyer does not accept it for other reasons, the
         Postal Service would inform the seller of the order status and refund payment to
         the buyer after receipt of goods at the seller.

Digital COD and Digital Escrow could discourage fraud and also help streamline the
order-returns-reorder process. Current postal ancillary and special services, both
physical and digital, are well suited to the peer-to-peer market. These include insurance,
Registered Mail, Certified Mail, COD, Track and Trace, Return Receipt and Return
Receipt for Merchandise, Restricted Delivery, and other services. In addition to its
current physical shipping services, special services, and ancillary products, the Postal
Service has already designed some web services that enable third-party integration.
This permits established peer-to-peer facilitators, entrepreneurs, and individual
innovators to take advantage of solutions from the Postal Service, thus facilitating ease-
of-use for both buyers and sellers.

New solutions from the Postal Service are especially needed in local peer-to-peer
transactions, as many of these transactions are less formal and provide less assurance
than traditional market services. A digital identity service and other postal services for
the peer-to-peer market would help solidify the Postal Service's role as a hub within the
community for facilitating commerce in this important new marketplace.




3
 This could serve the unbanked or underbanked populations in addition to a larger segment.
See U.S. Postal Service Office of Inspector General, Digital Currency: Opportunities for the Postal Service,
Report No. RARC-WP-12-001, October 3, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.




                                                          ii
U.S. Postal Service Office of Inspector General                                                                January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                                       RARC-WP-13-005




                                                 Table of Contents

Introduction ..................................................................................................................... 1

Peer-to-Peer Digital Commerce Description ................................................................... 3
          Facilitators ............................................................................................................ 4
          Reputation and Trust ............................................................................................ 6

Shortcomings and Challenges in Peer-to-Peer Commerce ............................................. 7
          Escrow and Payment Fraud ................................................................................. 8
          Counterfeit and Stolen Goods .............................................................................. 9
          Shortcomings in Service Transactions ................................................................. 9

Potential Postal Service Products and Services............................................................ 10
          Digital Identity ..................................................................................................... 10
          Digital COD and Digital Escrow .......................................................................... 12
          Other Postal Services ......................................................................................... 14

Positive Role for the Postal Service in the P2P Marketplace ........................................ 15
          Raising Confidence ............................................................................................ 15
          Enforcement and Accountability ......................................................................... 16
          Accessibility ........................................................................................................ 17
          Privacy ................................................................................................................ 18

Conclusion .................................................................................................................... 18




                                                                 iii
U.S. Postal Service Office of Inspector General                                                 January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                        RARC-WP-13-005




                                                    Tables

Table 1: Peer-to-Peer Facilitators and Revenue/Payment Models................................. 6

Table 2: Buyer and Seller Protection Summary ............................................................. 7

Table 3: Potential Postal Service Solutions in Peer-to-Peer e-Commerce ................... 11

Table 4: Key Elements of Digital COD and Digital Escrow Services ............................ 14

Table 5: Escrow Fees at P2P Sites .............................................................................. 23


                                                   Figures

Figure 1: Postal Service Digital COD and Digital Escrow Flows .................................. 13

Figure 2: Peer-to-Peer Postal Solutions and Law Enforcement ................................... 17

Figure 3: The Role of the Postal Service in Secure P2P Commerce ............................ 24


                                               Appendices

Appendix A           Players in the Peer-to-Peer Market ..................................................... 20

Appendix B           Sample Current P2P Escrow Fees ...................................................... 23

Appendix C           A More Secure Future for P2P Commerce .......................................... 24




                                                        iv
U.S. Postal Service Office of Inspector General                                                January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                       RARC-WP-13-005




                              Peer-to-Peer Commerce
                         and the Role of the Postal Service


Introduction
Innovations in payment processing, communications systems and devices, and logistics
networks have resulted in increased buyer and seller access to online retail channels
and a rise in new entrepreneurial ventures. Low barriers to facilitating transactions have
enabled trade not only between consumers and corporations, but also between
individuals and their peers. The term peer-to-peer (P2P) commerce refers to a model of
a marketplace where individual consumers — peers — trade goods, services, and
rentals directly. 4 Peer-to-peer commerce also allows both (1) corporations to create
P2P-offering platforms and (2) consumers to offer goods and services directly to each
other.

Peer-to-peer markets       The blurring of boundaries between P2P markets and
bring informal,            traditional businesses — including businesses that have a
inter-citizen trade        strong or exclusive Internet presence — is an important trend
online, collectively       that allows for additional growth in digital commerce
creating large scale       offerings, including but not limited to P2P. The growth will be
operations.                especially transformative if key challenges in identity
                           authentication are solved for both people and entities. High
standards of identity authentication allow buyers and sellers the option of being assured
that a real person exists who can be located for resolution of problems that might occur,
even if that person chooses to remain anonymous within a transaction.

Peer-to-peer markets bring informal, inter-citizen trade online, collectively creating
large-scale operations. Reliable data on market size of this e-commerce subsegment
are not collected by the U.S. Census Bureau or research organizations, primarily
because the P2P segment is still emerging and in part due to the difficulty of measuring
P2P transactions. 5 (State and local taxes, one potential source of information, may not
always be collected.)

Economic analysis shows that the retail e-commerce market, also known as e-retail, is
growing fast; observation and anecdotal evidence suggest that the P2P subsegment of
e-retail is also gaining traction in the retail marketplace. According to industry analysts
at Forrester Research, e-retail represents a strong growth area. U.S. consumers spent


4
  P2P refers to peer-to-peer commerce, which should not be confused with peer-to-peer network protocols such as
BitTorrent, commonly used in file-sharing networks.
5
  See Footnote 1.




                                                        1
U.S. Postal Service Office of Inspector General                                                        January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                               RARC-WP-13-005


more than $200 billion in 2011 on online shopping, and that number is expected to grow
by greater than 60 percent through 2016. 6

While the precise scope of the P2P market is unclear, the potential of the broader
e-retail segment is apparent. Accurately gauging the size and scope of the online P2P
marketplace is a difficult task. Even if it were possible to separate all e-commerce
transactions into those conducted between businesses and consumers and those
between only groups of consumers or peers, the exact number and value of
transactions would be difficult to ascertain. Each business operates differently and
reports little public data on market size and characteristics. Individual transactions may
be informal and not reported.

Craigslist and eBay are among the top 10 most-visited websites in the United States,
both of which provide a form of peer-to-peer commerce. 7 The first and most established
entry in this arena, eBay Inc., is the largest by far; it offers products sold by consumers
as well as traditional businesses. 8 Many P2P marketplace operators do not track the
value of commerce on their websites, but instead provide the total number of users or
listings as a potential estimate of P2P activity. 9

There is a trend in increased venture capital investment for P2P startups. According to
VentureTrends, a national venture capital database based in Menlo Park, California,
venture capital organizations have been funding P2P market startups over the past
5 years. 10 In 2011 there was a surge in the number of startups vying to facilitate
markets for individuals to trade goods and services or rent
                                                               In 2011, there was a
their underutilized property. 11 This is an important market
                                                               surge in the number
indicator that the P2P market is growing and potentially       of startups vying to
very profitable.                                               facilitate markets for
                                                                                      individuals to trade.
As the marketplace continues to evolve, new companies
are connecting consumers and enabling them to sell new types of products and
services to one another, including rental cars, college text books, apartment space,
used clothing, chores, and errands. 12 Peer-to-peer commerce allows consumers a
choice of goods and services of virtually all types. 13 The growth of this segment will

6
  Sucharita Mulpuru, US Online Retail Forecast, 2011 to 2016, Forrester Research, February 27, 2012.
7
  Alexa, “Top Sites in the United States,” http://www.alexa.com/topsites/countries/US.
8
  $60.3 billion worth of goods (excluding automobiles) were sold globally on eBay in 2011, approximately one-third
within the United States. See “eBay Inc. Reports Strong Fourth Quarter Full Year 2011 Results,” Business Wire,
January 18, 2012, http://www.businesswire.com/news/home/20120118006605/en/eBay-Reports-Strong-Fourth-
Quarter-Full-Year.
9
  Online classified listing leader Craigslist reports 60 million users active on a monthly basis in the United States in
2012. In 2010, Craigslist reported 573 million listings for various products and services. See Austin Carr, “The
Craigslist Crime Report: 'Cesspool of Crime,’ Bold Use of Marketing,” Fast Company, February 24, 2011,
http://www.fastcompany.com/1731352/craigslist-crime-report-cesspool-crime-bold-use-marketing-updated.
10
   “VCs show healthy appetite for peer-to-peer companies,” VentureBeat, January 25, 2012,
http://venturebeat.com/2012/01/25/vcs-show-healthy-appetite-for-Peer-to-Peer-companies-analysis/.
11
   Ibid.
12
   “The New Market Places – Peer to Peer Collaborative Consumption,” Entrepreneurship Review, March 10, 2011,
http://miter.mit.edu/articlenew-market-places-peer-peer-collaborative-consumption/.
13
   “Your friendly neighborhood app: The internet is going local,” The Economist, October 27, 2012, p. 6.




                                                            2
U.S. Postal Service Office of Inspector General                              January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                     RARC-WP-13-005


make it an attractive target for traditional and new forms of fraud. Because peer-to-peer
transactions inherently occur between two individuals whose real identities may not be
revealed, the current P2P model is often based on an intangible honor system that can
be violated by unscrupulous people. One example of this is misrepresentation of rental
property; there are many others (see the "Shortcomings in Service Transactions”
section on page 9).


Peer-to-Peer Digital Commerce Description
While “peer-to-peer commerce” would suggest a market in which only individuals
transact, the realities of the web are different. Most P2P websites typically involve
connecting an individual consumer with a seller, which can be another individual or
business, through a digital interface. These transactions may be facilitated by a third
party, creating a place for buyers and sellers to find one another. The facilitator may
help complete the transaction by offering payment processing and other services. Most
often these two aspects of a facilitator’s offerings are accessible via a single website or
mobile application: (1) presenting the offer to potential customers, and (2) offering
purchase options to complete the transaction.

Applications of the P2P model are still evolving in online commerce. Today, a majority
of P2P transactions share some key characteristics:

       Informal – Transactions are conducted between two parties, with little physical
        infrastructure. Items are often offered "as-is," with no warranty or customer
        support offered. While some businesses sell merchandise through sites such as
        Craigslist and eBay, the commerce is not typically part of an ongoing commercial
        activity for the buyer or seller.

       Infrequent and intermittent – A consumer may sell some used sporting goods on
        eBay to clear space in his or her garage, or sell a used car via Craigslist. While
        some users participate in these markets as a hobby, transactions are infrequent
        for many participants. Businesses may use P2P as a channel to sell excess
        inventory without impacting other store items.

       Facilitated – Participants need a way to find one another. Facilitators, including
        Amazon.com Marketplace, Craigslist, and eBay, create a centralized listing of
        sales and auctions, searchable by relevant criteria. Many facilitators span a wide
        range of offerings, including services and rentals (see Appendix A), and offer
        payment processing. These services help both individual sellers as well as small
        home businesses.

Peer-to-peer commerce presents a unique appeal to consumers. By purchasing goods
directly from other consumers through this informal network, buyers often find lower-
cost options. Some buyers see dealing in both local and digital markets as a way to
reduce waste and the environmental impact of consumption. Many sellers think of P2P




                                                   3
U.S. Postal Service Office of Inspector General                                                  January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                         RARC-WP-13-005


markets as an environmentally friendly way to dispose of unused or unwanted property
and receive money at the same time.

Peer-to-peer markets can be a form of collaborative consumption. 14 They provide
economic incentives to maximize overall efficiencies by facilitating sustainability efforts,
optimizing resources, and allowing for greater consumer
choice. 15 In addition, consumer options are geographically     Peer-to-peer markets
dispersed, allowing for customer arbitrage opportunities        provide economic
(i.e., buying at one price and reselling at higher prices).     incentives to maximize
                                                                overall efficiencies.
This creates a “virtual bazaar.”

Peer-to-peer commerce knows no geographic boundaries, as long as there are logistics
services in place. However, opportunities in the cross-border P2P market do not come
without challenges for buyers and sellers. From language barriers to hidden fees (in the
form of customs charges, duties, and delivery fees) to difficulty in tracking orders, the
international market remains a potentially lucrative but challenging arena in which to
operate. Other obstacles include currency conversion, returning or exchanging items,
validating addresses, and difficulties in credit card acceptance. 16

Some P2P facilitators are experimenting with different promotional vehicles traditionally
used by national and local businesses, offering coupons through the mail or other
channels. Local “classified ad” website Craigslist maintains a directory of listings posted
by users intended for a local customer group. These include difficult-to-ship items for
sale such as furniture, appliances, automobiles, and some sporting goods. Many P2P
listings on Craigslist and other sites would formerly have appeared in newspaper
classifieds.

With low industry barriers to entry and a large potential customer base, the P2P e-
commerce market presents an attractive opportunity today to startup facilitators.
Startups can “pivot” (change their offerings very easily) if prototypes or launches do not
achieve the necessary scale to become profitable. The new commerce initiatives and
protocols typified by today's burgeoning P2P markets are here to stay, although P2P's
speed of growth will be helped by a more reliable trust framework. 17

Facilitators

Facilitators are the entities that operate the platform on which a P2P market is based. In
most cases, the platform takes the shape of a website or mobile application where

14
   Rachel Botsman and Roo Rogers, What’s Mine Is Yours: The Rise of Collaborative Consumption (New York:
HarperBusiness Books, 2010).
15
   “The New Market Places – Peer to Peer Collaborative Consumption.”
http://miter.mit.edu/articlenew-market-places-peer-peer-collaborative-consumption/.
16
   Many of these cross-border issues were discussed in detail at an OIG workshop on “Connecting Buyers and
Sellers” held on September 26, 2012.
17
   “Although the examples of Collaborative Consumption range enormously in scale, maturity, and purpose, they
share similar underlying principles essential to making them work…critical mass, idling capacity, belief in the
commons, and trust between strangers.” Botsman and Rogers, p. 11.




                                                         4
U.S. Postal Service Office of Inspector General                                                   January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                          RARC-WP-13-005


peers are able to find buyers and sellers. Examples of large facilitators in the P2P
market for goods include Amazon.com Marketplace, Craigslist, and eBay. Common
attributes of most facilitators include:

        Websites or applications (apps) facilitating P2P commerce list items, rentals, or
         services in a searchable or browseable interface that helps users narrow their
         focus by category or location.

        A profile of market participants that includes reviews, comments, and other
         feedback collected from previous transactions. Users can view this feedback,
         sometimes referred to as “reputation capital,” 18 when evaluating the
         trustworthiness of sellers.

        Offers that may be listed on Internet-wide search engines purporting to give the
         best “deals” for travel, tours, and accommodation.

        Payment processing and other financial options to assist and encourage
         purchase.

As noted above, one of the most prominent websites facilitating P2P e-commerce — as
well as offerings from commercial businesses — is eBay.
Often, consumers search eBay looking for a lower price on        Typically in the
used goods instead of shopping with a local or online retailer.  P2P economy, no
EBay facilitates P2P commerce in that it connects two            inventory is held or
consumers (peers), showcases the product on offer, and           owned by the
helps to complete a transaction. EBay does not stock its own     facilitator.
merchandise; users offer all of the items for sale on the
website. Typically in the P2P economy, no inventory is held or owned by the facilitator.

Many facilitators strive to offer convenience in order to gain a competitive advantage.
Processing payments is a key hurdle in online transactions, and cash is not an option
for remote transactions. To help clear that hurdle, most facilitators have created both a
                       marketplace for P2P transactions and also provide payment
 Facilitators in       processing services.
P2P e-commerce
usually charge a     Facilitators in P2P e-commerce (and some other e-commerce
commission for       segments) usually charge a commission for their services. This
their services.      approach is viewed by many economists as efficient, in part
                     because these startups do not require any capital investment to
               19
acquire assets. See Table 1 for an overview of sample commission structures and
how select sites deal with payment processing.



18
   Or feedback can be a portion of total reputation capital, which can have several components.
19
   “The New Market Places – Peer to Peer Collaborative Consumption.”
http://miter.mit.edu/articlenew-market-places-peer-peer-collaborative-consumption/.




                                                          5
U.S. Postal Service Office of Inspector General                                                  January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                         RARC-WP-13-005

                    Table 1: Peer-to-Peer Facilitators and Revenue/Payment Models

                                                                                              Payment
 Company                   Founded          Revenue Structure
                                                                                              Processing
                                            Hosts pay 3%, guests pay 6 - 12%
 Airbnb                    2007                                                               Yes
                                            of booking
                                            $0.99/sale + referral fee of 6 - 25%
 Amazon                                     + closing fee around $1.15 on first
                           2000                                                               Yes
 Marketplace                                40 listings (varies by shipping
                                            method, size, and weight)
                                                                                              Optional;
                                            9% of final value (up to $250) up to
 eBay                      1995                                                               integrated
                                            first 50 listings for auctions
                                                                                              PayPal
 Etsy                      2005             3.5% of every sale + $.20 per listing Optional

 Getaround                 2009             35% - 40% commission                              Yes
                                            Property owner pays $349 annual
 HomeAway                  2005                                                               Yes
                                            subscription
                                            Of a $30 task price, service fee is
 TaskRabbit                2008                                                               Yes
                                            5%
Source: U.S. Postal Service Office of Inspector General based on September 2012 data


Reputation and Trust

As the market becomes increasingly crowded with new entrants and traditional
e-businesses grow their P2P platforms, differentiation among reliable and trusted
providers will become more and more important. Ways
of gauging reputation — reviews, ratings, and third-party  As the market becomes
           20
trustmarks — are likely to increase influence and          increasingly crowded,
      21                                                   differentiation among
value, especially in the P2P market segment. Further,
                                                           reliable and trusted
reputation cues must be easy-to-use and understand.        providers will become
                                                                              more and more
The absence of identity verification limits the opportunity   important.
for efficient geographic arbitrage within P2P markets. 22
Sellers and buyers are either paying more to minimize risk or accepting inherent risk
when solid identity authentication and trust are lacking. As solutions emerge under the


20
   A badge, image, or logo found on an electronic website that indicates the website is a member of a professional
organization or that the website has passed security tests. The trustmark shows approval branding by a well-known
third company. Webopedia, “e-commerce trustmark,”
http://www.webopedia.com/TERM/E/e_commerce_trustmark.html.
21
   Anindya Ghose, Panagiotis G. Ipeirotis, and Arun Sundararajan, “Reputation Premiums in Electronic Peer-to-Peer
Markets: Analyzing Textual Feedback and Network Structure,” presented at SIGCOMM, August 22-26, 2005,
Philadelphia (ACM 1-59593-026-4), http://pages.stern.nyu.edu/~aghose/p2prep.pdf.
22
   Geographic arbitrage refers to taking advantage of price differences from one location to another for a given
product.




                                                         6
U.S. Postal Service Office of Inspector General                                                January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                       RARC-WP-13-005


National Strategy for Trusted Identities in Cyberspace (NSTIC) or other initiatives, some
of the uncertainties and risks in this area may be mitigated.

Offering buyer and seller protection and a dispute resolution process are other
important steps that facilitators take to offset the risk of dealing in a P2P market. While
buyers in a retail environment are often covered by manufacturer warranties and credit
card protections, purchasers in P2P markets must look to the facilitator, rather than the
seller, to guarantee satisfaction (see Table 2).
                             Table 2: Buyer and Seller Protection Summary

                    Payment    Buyer                                                       Reputation
 Company                                                     Seller Protection
                    Processing Protection                                                  Tracking
                                                             $1 million Host               Guest & Host
                                                             Insurance, optional           Reviews, Optional
 Airbnb             Yes               None
                                                             phone screening of            Social Network
                                                             guests                        Integration
 Amazon
                    Yes               Yes                    None                          Seller Reviews
 Marketplace

 Craigslist         None              None                   None                          Anonymous
                    Optional,
                                                             eBay Resolution               Buyer & Seller
 eBay               integrated        Yes
                                                             Center                        Reviews
                    PayPal
                                                             Protected from
 Etsy               Optional          Yes                    unauthorized                  Seller Reviews
                                                             payments and fraud
                                                             Vehicle Insurance,
                                                             Drivers Screened via          Vehicle & Driver
 Getaround          Yes               Driver Insurance
                                                             Facebook, DMV, &              Reviews
                                                             Credit Report
                                      Service Provider
                                      Background                                           Service Provider
 TaskRabbit         Yes                                      None
                                      Check &                                              Reviews
                                      Screening
Source: U.S. Postal Service Office of the Inspector General based on September 2012 data



Shortcomings and Challenges in Peer-to-Peer Commerce
The nature of many P2P transactions (infrequent, intermittent, and informal) may mean
that participants are more vulnerable and exposed than if they were to purchase goods
and services from a traditional e-business or a physical      Market participants
store. Significant shortcomings, especially in identity       struggle with the
verification and authentication, contribute to various types  threat and impact of
of fraud; common scams include escrow fraud, payment          online fraud.
fraud, stolen or counterfeit items, and identity fraud. As
P2P markets provide growing economic promise, market participants struggle with the



                                                       7
U.S. Postal Service Office of Inspector General                                           January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                  RARC-WP-13-005


threat and impact of online fraud. Many established e-businesses and large P2P
facilitators have invested significant funds to minimize attempts at fraud, although the
problem has not been eliminated. 23

While there has not been formal research into fraud specifically in P2P e-commerce, it
has been studied as a part of overall e-commerce. In its “2012 Online Fraud Report,”
CyberSource’s survey of online merchants reports an annual loss of 1 percent of total
online revenue to fraud. 24 The study noted that the challenge for merchants is handling
greater volumes of orders while maintaining efficiency and minimizing fraud. 25 When the
1-percent estimate is applied to the U.S. Census Department’s retail e-commerce
                          estimate of $192 billion in revenues in 2011, 26 this places the
Lack of confidence
                          fraud loss from all types at approximately $2 billion.
and trust can limit
potential new
                          Some buyers and sellers choose not to engage in P2P
businesses and
applications.             commerce with an unknown or emerging facilitator, because
                          they do not consider the trust framework to be sufficiently
reliable. This lack of confidence and trust can limit potential new businesses and
applications or simply encourage both buyers and sellers to use established facilitators.
P2P markets need assistance in minimizing this barrier to growth to help fully develop
their economic and social potential.

Escrow and Payment Fraud

Escrow is a service provided by a third party that accepts and holds a payment pending
fulfillment of some condition or agreement. In an escrow scam, a party to a P2P
transaction convinces the other party to complete a transaction using a fake escrow
service. A counterfeit escrow service may look very much like a legitimate operation,
indicating that funds have been received and that a seller should ship the item when in
fact the payment will never appear. Alternatively, the fake escrow service may be used
to illegally capture the buyer's payment and other personal details, while the item listed
for sale does not exist.

While legitimate escrow services exist online, the costs are often prohibitive for all but
high-value items such as automobiles or jewelry. This means that buyers and sellers in
P2P markets are often required to conduct business directly, exposing personal
information (name, email, and shipping address) in the course of completing an online
transaction, or meeting in person and handling cash in the case of a local transaction.
Both courses of action present a threat to the privacy of participants in P2P markets
and, potentially, to their physical safety.

23
   CyberSource, “2012 Online Fraud Report: Online Payment Fraud Trends, Merchant Practices and Benchmarks,”
http://forms.cybersource.com/forms/NAFRDQ12012whitepaperFraudReport2012CYBSwww2012 (accessed October
26, 2012).
24
   Ibid.
25
   Ibid.
26
   “Quarterly Retail E-Commerce Sales,” U.S. Department of Commerce, U.S. Census Bureau, 2012,
http://www.census.gov/retail/mrts/www/data/excel/tsnotadjustedsales.xls




                                                     8
U.S. Postal Service Office of Inspector General                                                        January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                               RARC-WP-13-005


Payment fraud can take many forms: in addition to counterfeit currency and money
orders, payment fraud includes falsified emails confirming digital payments or a
common ploy called an overpayment scam. In an overpayment scam, the seller is given
a phony monetary instrument such as a money order, for an amount greater than the
item’s price. The buyer informs the seller that the situation is an honest mistake and, so
as not to delay the transaction, requests the seller to refund the extra balance. Often the
seller refunds the balance in good faith, before it is discovered that the original payment
instrument was counterfeit.

Counterfeit and Stolen Goods

Websites such as Craigslist that provide an anonymous market for goods are a
convenient venue for thieves to sell stolen items. While local police sometimes recover
stolen items by searching for them on local P2P websites, buyers who fall victim are
often left with no recourse due to the anonymity of the transaction. Counterfeit items are
another major obstacle to trade, and an area in which the federal government has been
deeply involved. In these situations, buyers and sellers of goods are presented with
challenges in determining who can be trusted when conducting commerce online.

This risk is greater in remote transactions in which the buyer is unable to examine or
test the item prior to purchase. The absence of solid identity verification in many service
transactions limits the opportunity for efficient geographic competition within P2P
markets. Many buyers prefer to work with someone locally who is known to them rather
than risk a transaction with a party that is far away. Ironically, however, the largest
facilitator of local transactions, Craigslist, offers no mechanism for integrated payment,
and no service protections. 27

Shortcomings in Service Transactions

Service facilitators do not always face the same risks associated in dealing with goods.
But they often face unique and serious challenges
regarding the safety of their customers, in part because of     Service facilitators
shortcomings with identity verification and authentication.     often face unique
                                                                and serious
Although many incidents may not be widely publicized,
                                                                challenges
recent high-profile news articles involving P2P commerce        regarding the safety
and safety issues include property insurance fraud,             of their customers.
fraudulent vacation rentals at nonexistent addresses, and
even murder. 28

27
   Craigslist specifically does not offer guarantees, but it does offer a disclaimer warning of fraud included in each
message sent through the site. For more information on avoiding or reporting fraud on Craigslist, see Craigslist,
“about > scams,” http://www.craigslist.org/about/scams.
28
   In 2011 an Airbnb users' home in San Francisco was ransacked by renters found through the website. In response,
Airbnb created a now $1,000,000 guarantee for hosts. In another incident, a woman attempting to rent a property in
New York via Craigslist arrived at the location to find the property did not exist. In addition to having no place to stay,
the woman lost her $950 deposit. In a recent NBC/Dateline undercover segment titled “The Wild Wild Web,”
producers used Craigslist and other P2P classified sites for counterfeit ticket sales, prescription drugs, and counterfeit
(continued on next page)


                                                            9
U.S. Postal Service Office of Inspector General                                                  January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                         RARC-WP-13-005


Many of today’s startups working in P2P markets are         In markets that rely only on
integrating identity information from social networks       email authentication, users
such as Facebook as a part of their method of tying         with poor feedback profiles
users to identities. While Facebook policy prohibits        may easily abandon one
falsifying information, there is little infrastructure in   alias for another.
place preventing people from adopting a number of
aliases; this is true on other sites as well. In e-commerce markets that rely only on email
authentication, users with poor feedback profiles may easily abandon one alias for
another.


Potential Postal Service Products and Services
As P2P markets expand, new opportunities are available to the Postal Service to offer
existing services more effectively (see page 14 for a list of these services). In addition,
service integration can position the Postal Service for expanded revenue in digital
markets while empowering P2P innovators. 29

Digital Identity

With its reputation as the most trusted federal government agency and its long history of
protecting the privacy of First-Class Mail®, the Postal Service could lead the way in
bringing privacy and real-world validity to digital identity. 30 Table 3 illustrates the many
ways in which strengthened digital identity and authentication services as well as Digital
COD and Digital Escrow could help overcome existing shortcomings in the current
market and offer other opportunities presented herein. Initial customers would include
current credit and debit card holders, but the potential customer base could be much
larger.




electronics. Even more serious and more sensational, a bogus Craigslist job listing in Ohio lured four applicants to
farmland in Ohio, where three were murdered and one shot. The perpetrator was recently convicted. Sources:
“Renters Get Swindled and Scammed,” The New York Times, June 26, 2009, p. RE1,
http://www.nytimes.com/2009/06/28/realestate/28cov.html?pagewanted=all; “Chris Hansen enters the 'Wild, Wild
Web,’” Inside Dateline, October 26, 2012, http://insidedateline.nbcnews.com/_news/2012/10/22/14619065-oct-26-
chris-hansen-enters-the-wild-wild-web?lite; “Craigslist Used in Deadly Ploy to Lure Victims in Ohio,” The New York
Times, December 2, 2011, http://www.nytimes.com/2011/12/02/us/three-lured-to-death-in-ohio-by-craigslist-job-
ad.html?pagewanted=all.
29
   A recent white paper suggests that there are arguments that a number of new products could be permitted under
current regulations. Some legal issues may remain open to interpretation. U.S. Postal Service Office of Inspector
General, Bridging the Digital Divide: Overcoming Regulatory and Organizational Challenges, Report No.
RARC-WP-12-004, November 22, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-12-004.pdf.
30
   The Ponemon Institute has ranked the Postal Service among the most trusted federal agencies. Ponemon Institute,
“U.S. Postal Service Tops Ponemon Institute List of Most Trusted Federal Agencies,”
June 30, 2010, http://www.ponemon.org/news-2/32. For a discussion of the Postal Service and digital identity, see
U.S. Postal Service Office of the Inspector General, Digital Identity: Opportunities for the Postal Service,
http://www.uspsoig.gov/foia_files/RARC-WP-12-011.pdf.




                                                        10
U.S. Postal Service Office of Inspector General                                                   January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                          RARC-WP-13-005

                Table 3: Potential Postal Service Solutions in Peer-to-Peer e-Commerce

 Shortcoming/ Current Market                                                        Potential Postal Service
                                                 Continuing Gap
 Challenge    Response                                                              Solution
                      Electronic                 Electronic                         •   Postal Service Digital ID
                      • Username &               • Open ID services have                and in-person proofing
                          password                   no uniform standards           •   Opt-In verification of
                      • Open ID                  • No in-person verification            name and address in
 Identity Fraud/      Physical                   Physical                               USPS mailing files
 Loss of Privacy      • ID Card                  • Physical ID verification         •   Anonymous handling of
                      • Biometric                    is usually not possible in         transactions using an
                          Identification             online transactions                alias tied to an
                                                                                        authenticated identity
                                                                                                                *
                                                                                        with restricted viewing
                      Legitimate private
                                                 High cost and transaction              Digital COD and Digital
 Escrow Fraud         escrow and payment
                                                 fees (see Appendix B)                  Escrow Service
                      services (e.g., PayPal)
                      • Buyer Beware
                           warnings              Anonymity of online
 Counterfeit and           (Craigslist)          transactions continues to
                                                                                        Postal Service Digital ID
 Stolen Goods         • Refunds (eBay)           attract sellers of counterfeit
                      • Satisfaction             and stolen merchandise.
                           Guarantee
                      Sellers are often          Cash is not always
                      advised to avoid           convenient for long distance
                                                                                        Digital COD and Digital
 Payment Fraud        transactions involving     transactions; not every
                                                                                        Escrow Service
                      personal checks and        seller can accept credit and
                      money orders.              debit cards.
                      Background Checks                                                 Postal Service Digital ID
                                                 A variety of solutions with
 Product or           (TaskRabbit),                                                     and Digital Escrow
               31                                limited evidence of
 Service Fraud        Multifactor identity                                              Service
                                                 effectiveness
                      verification
     *
       Such an offering may have to be compliant with current bank secrecy and Office of Foreign Assets Control
     laws and regulations.
Source: U.S. Postal Service Office of Inspector General, 2012

Many households do not have access to financial services such as checking and
savings accounts or credit and debit cards. According to a recently released report from
the Federal Deposit Insurance Corporation (FDIC), based on a 2011 survey, more than
8 percent of U.S. households are unbanked, and more than 20 percent are
underbanked. 32 This and other data from the FDIC demonstrate a significant potential
gap in participation in the P2P and general e-commerce marketplace. Although it is
possible to send payments by money order in the mail, most digital commerce is
conducted through online payments, primarily credit and debit cards. A combination of a
Digital ID offering from the Postal Service and Digital COD with digital currency could


31
  Product or service fraud involves offering products or services that do not exist or are not as represented.
32
  Federal Deposit Insurance Corporation, 2011 Federal Deposit Insurance Corporation Survey of Banked and
Unbanked Households, September 2012, http://www.fdic.gov/householdsurvey/.




                                                         11
U.S. Postal Service Office of Inspector General                                                    January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                           RARC-WP-13-005


potentially open up web commerce to a larger group while avoiding various types of
fraud.

The same concept for identity proofing is applicable to offset risks in P2P rental
                             markets, where property owners and renters face the
Authenticating the           same   vulnerability. Authenticating the identities of
identities of participants   participants in a P2P service transaction could serve to
in a P2P service             deter criminals and offset the risks to market participants
transaction could serve      of dealing closely with another person who is unfamiliar or
to deter criminals and       completely unknown. 33
offset the risks to market
participants…                  There would be overall economic benefits to identity
                               verification from the Postal Service and/or a postal
trustmark. A postal trustmark would show that the digital identity or other postal tool
being utilized offers a sense of protection. A trustmark would
leverage many Postal Service strengths, including security,        A trustmark would
privacy, and trust.                                                leverage many
                                                                                      Postal Service
Identity verification, including a postal trustmark, could      strengths,
directly enhance a seller’s online reputation capital, in       including security,
conjunction with user reviews, allowing buyers to differentiate privacy, and trust.
among the plethora of offers available and sellers to offer
higher prices. The importance of reputation capital cannot be minimized: it acts as a
secondary currency. 34

Digital COD and Digital Escrow

With the repositioning of COD as a "Digital COD" service for P2P, where the buyer does
not make a payment until she receives the package, some of the uncertainties inherent
in the P2P market would be relieved. 35 In a potential Digital COD offering, the Postal
Service would act as a facilitator to ship and deliver the product ordered and accept
payment from the buyer upon the buyer's receipt of the product. The Postal Service
would transmit payment to the seller electronically, via credit card or prepaid digital
currency card, less a commission. 36 The seller would pay any credit card merchant
fees.

In a potential Digital Escrow offering, at the time of purchase, the buyer would place
payment in a protected escrow account held by the Postal Service. Upon receipt and

33
   Of course, no system will completely deter crime, but it can be minimized to the greatest extent possible.
34
   Botsman and Rogers, p. 194. “By the end of this decade, power and influence will shift largely to those people with
the best reputations and trust networks, from people with money and nominal power.” Craig Newmark, “Trust and
Reputation Systems: Redistributing Power and Influence,” Craigconnects, April 6, 2010, quoted in Botsman and
Rogers, p. 196.
35
   The current COD product is targeted toward the unbanked and underbanked, and Postal Service efforts to digitize
COD have not materialized to date. Interview conducted with U.S. Postal Service, October 26, 2012.
36
   See U.S. Postal Service Office of Inspector General, Digital Currency: Opportunities for the Postal Service,
http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.




                                                          12
U.S. Postal Service Office of Inspector General                                     January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                            RARC-WP-13-005


acceptance of the item (or service), the buyer would authorize release of payment by
the Postal Service to the seller. If the item is received broken or the seller does not
accept it for other reasons, the Postal Service would inform the seller of order status
and refund payment to the buyer.

The Digital COD and Digital Escrow services address similar, but distinct, market
needs. Some customers do not want to pay for an item until it is in their hands. Others
may be concerned that in the event the item or service they thought they had purchased
is not actually as represented, they may not be able to obtain a refund easily or quickly.
This is of special concern on high-end items, where a significant amount of money may
be tied up in the unsuccessful purchase. (See Figure 1 for a comparison of flows.)
                    Figure 1: Postal Service Digital COD and Digital Escrow Flows




Source: U.S. Postal Service Office of Inspector General, 2012

It is possible that the services could be combined into one easy-to-understand solution
with clearly defined options (or that, ultimately, one or the other service will be
successful and the other may be phased out). Payment is made at different times, and
refunds to the buyer under each scheme would be different. (For a comparison of the
two services, see Table 4.)




                                                        13
U.S. Postal Service Office of Inspector General                                           January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                  RARC-WP-13-005

                  Table 4: Key Elements of Digital COD and Digital Escrow Services

                                    Digital COD                 Digital Escrow
                                                                Upon approval of recipient (can examine
 Condition of payment               Upon receipt of good
                                                                condition of good)
                                                                Through payment released by Postal
 How is seller paid?                Directly by recipient
                                                                Service
 Is it integrated with
                                    Yes                         Optional
 delivery?
                                    Deliverer and
 Role of Postal Service                                         Holder of payment
                                    conduit for payment
Source: U.S. Postal Service Office of Inspector General analysis, 2012


Other Postal Services

The Postal Service is well positioned to provide a wide range of existing complementary
products and services to the P2P market. Sellers seeking easy-to-use shipping
solutions can access a wide range of services through multiple access channels. There
is also the possibility of promoting many current postal products in conjunction with P2P
services, including:

       Delivery Confirmation – Provides basic delivery or attempted delivery information
        through the Postal Service’s Track & Confirm tool.

       Insurance – Protection for loss or damage of up to $5,000 on the declared value
        of an item.

       Return Receipt and Return Receipt for Merchandise – Proof that an item was
        delivered with an email or postcard showing the recipient’s signature.

       Adult Signature Required – Ensures that an adult (21 years or over) signs for a
        shipment at the recipient’s address.

       Registered Mail – Provides the highest security for valuable items that can be
        insured for up to $25,000.

       Restricted Delivery – Allows the customer to specify who can sign for and receive
        the item.

       Signature Confirmation – Offers basic delivery or attempted delivery information
        through the Postal Service’s Track & Confirm tool, but adds extra security by
        requiring a signature at delivery.

       Certificate of Mailing – An official record of evidence that the customer mailed an
        item on a specific date.




                                                        14
U.S. Postal Service Office of Inspector General                                                     January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                            RARC-WP-13-005


Additionally, a number of other services could also benefit from the enhanced P2P
services:

        Flat-rate Priority Mail boxes and envelopes – These products offers two-day
         delivery under the motto “if it fits, it ships” with optional access to Track &
         Confirm.

        Returns Services – The Postal Service offers a range of returns services for
         businesses ranging from Priority Mail to ground to parcels. While developed for
         the larger customer in mind, ease of returns for smaller P2P merchants would
         drive additional traffic. One of these services, Merchandise Return Service,
         allows customers to return items using a preprinted, prepaid label or a label
         printed from the seller’s website. The ability to provide a seamless return and
         reorder service is critical to much retail e-commerce.

The Postal Service is in an excellent strategic position to present a full solution for P2P
ordering, payment, delivery, returns, and reorder services, complete with ancillary
products. Pricing strategies would reward customers who utilize the complete postal
solution, while still permitting competitive pricing for discrete products. This incremental
approach, which fits in with the Postal Service’s current digital strategy, also has the
advantage of allowing adaptation to a quickly changing, dynamic marketplace.

Currently, the Postal Service provides e-commerce operators with an application
programming interface (API) to check address validity, access delivery status, estimate
delivery times, calculate postage, schedule carrier pick-up, and create shipping labels
during an e-commerce checkout process. 37


Positive Role for the Postal Service in the P2P Marketplace

Raising Confidence

Postal Service involvement in this market would increase confidence among both
buyers and sellers, and encourage people to participate in P2P transactions. The Postal
Service possesses a number of valuable assets that can be used to enable transactions
between sellers and consumers in an online P2P marketplace. In providing potential
identity verification and payment services for P2P e-commerce, the Postal Service could
leverage its current role in e-commerce along with its trusted name and reputation for
protecting the privacy of its customers. Users could include both users with credit or
debit cards and the unbanked or underbanked through digital currency solutions. 38
Additionally, the Postal Service possesses decades of experience with secure, short-
37
   Any potential program needs to be very convenient, with few or no hurdles to getting a customer to use it. For this
type of service, Gartner, an information technology research and advisory company, estimates that every hurdle in a
process loses about 50 to 75 percent of those currently engaged in the process. Gartner analyst interviews,
November 30, 2012.
38
   See U.S. Postal Service Office of Inspector General, Digital Currency: Opportunities for the Postal Service,
http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.




                                                          15
U.S. Postal Service Office of Inspector General                                                  January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                         RARC-WP-13-005


term currency transfer and payment services including Dineroseguro®, postal money
orders, and most recently, American Express gift cards. These services also have
benefited substantially over the years from the Postal Service’s trust and security
assets.

The Postal Service has implemented web services that enable third-party integration
into its e-commerce platform. As is commonly the case with new technologies,
                           entrepreneurs often find novel applications that the creators
 The Postal Service has    of the original system did not imagine. Using digital identity
 implemented web
 services that enable
                           within digital P2P markets is one application out of many.
 third-party integration   Other applications include providing a secure login for online
 into its platform.        access to government services, finance, and health
                           information. The Postal Service’s role would be
complementary to already existing market offerings; it would play an essential role in a
more secure P2P marketplace for both buyers and sellers (see Appendix C).

By playing a role in verifying the identity of P2P market participants, 39 the Postal Service
would address several issues that currently may limit the market’s full scale potential.
These fall into several categories, including enforcement and accountability,
accessibility, and privacy.

Enforcement and Accountability

When a P2P transaction incorporates the use of a postal product or service, the
protections offered under the mail fraud statutes may be applicable to the P2P
transaction. This would allow postal law enforcement to leverage its expertise in
investigating potential fraud and other crimes related to P2P commerce via the Postal
Service. Two law enforcement organizations provide these enforcement services. The
Office of Inspector General (OIG) primarily investigates internal misconduct, while the
Postal Inspection Service focuses on external crimes connected to the U.S. mail
system. This law enforcement capability permits both organizations to investigate
crimes committed in violation of several hundred federal laws ranging from using a false
identity to contract and financial fraud. Offering identity verification and payment
services through the Postal Service, potentially tethered to products already in
existence such as COD, will provide users the additional benefit of knowing that an
experienced law enforcement structure already exists to handle fraud or other legal
claims.

Accountability is related to enforcement. In anonymous markets, participants’ identities
are withheld, leaving victims of fraud without information that can be used to resolve
issues and hold parties accountable. The Postal Service can help fill this important role
of maintaining the anonymity of buyers and sellers, but securely retaining the


39
  The Postal Service should engage to see how to best assist and add value to P2P trust not only through its own
solutions but also NSTIC-supported solutions.




                                                        16
U.S. Postal Service Office of Inspector General                                    January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                           RARC-WP-13-005


information in the short term, in the event that those involved in a P2P transaction must
be identified and held accountable if there is a problem with the transaction.

For example, the seller in a local, anonymous P2P transaction is exposed to a risk of
payment fraud. The buyer in the same transaction risks receiving stolen or counterfeit
goods. To offset these risks, the parties could agree to register their transaction with a
trusted third party (like the Postal Service) who would hold the identities confidentially,
allowing anonymity when desired by either party. To protect individual privacy, neither
user could access the identity of the other. In the event of criminal activity, law
enforcement would be able to access the identities of the parties involved in the
transaction through the trusted third party. This approach provides avenues for recourse
in the event of fraud while still protecting the privacy of the individuals participating in
the transaction. Attributes of the buyer and seller provided to the Postal Service would
only be released to law enforcement in the event of fraud (see Figure 2).
                     Figure 2: Peer-to-Peer Postal Solutions and Law Enforcement




Source: U.S. Postal Service Office of Inspector General, 2012


Accessibility

Identity solutions that are more accessible to consumers may allow more participation in
the digital economy. The Postal Service’s extensive retail and delivery network places
today’s P2P market and digital identity within reach of every American household and
business, including individuals who may not have bank accounts or credit cards.
Building on an open and interoperable platform for digital identity, the Postal Service is
well positioned to offer digital identity verification on a national scale. By leveraging that


                                                        17
U.S. Postal Service Office of Inspector General                               January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                      RARC-WP-13-005


reach, the Postal Service could expand its current identity verification service (utilized
today for U.S. passport processing and some postal products and services) to issue
digital identities linking a specific person to a postal address or to provide in-person
authentication for a third-party identity provider.

Privacy

Relying on a network of social identity and credit information requires users to expose
their identity details to organizations that are not accountable for how that information is
utilized, including the use of context-sensitive advertising without consideration of the
buyer’s and seller’s personal information. The Postal Service could provide a level of
privacy that many of the facilitators in today’s P2P marketplace do not offer.


Conclusion
Peer-to-peer markets are an important and growing part of the digital economy, and the
application of this model is predicted to continue to dramatically expand. While the need
for digital identity services is widespread and not uniquely driven by the peer-to-peer
market channel, peer-to-peer markets would benefit from digital identity verification
services. Fear of fraud among users (both buyers and sellers) could decrease as many
cases of fraud would be eliminated. From this application, the Postal Service can
provide infrastructure for increasing the accountability of peer-to-peer markets and with
it, provide a catalyst for further growth for all parties. Postal strategies should focus on
complementary services and allow for users to keep both their anonymity and privacy in
transactions, while at the same time ensuring the capability of tracking parties in cases
of fraud.

Products and offerings in digital identity, in-person proofing, and other services for the
peer-to-peer market would help the Postal Service strategically in responding to market
needs for privacy and security. These offerings would position the Postal Service more
favorably with younger consumers whose lives are focused on digital communications
and commerce, either on websites or through mobile and smartphone applications. In
addition, such services would further solidify the Postal Service’s role as a hub within
the community for facilitating commerce. This would be an extension of the role it has
traditionally played in commerce over the years and allow growth of many of its current
services, in addition to some extensions of current services.

As the lines between traditional retail, formal e-commerce, and peer-to-peer commerce
increasingly meld, the number and value of overall transactions on websites, mobile
devices, and future devices will grow exponentially. No business or offering connected
with commerce can afford to ignore the changes introduced by digital commerce,
including rapid expansion of peer-to-peer markets and the multifaceted opportunities
they present.




                                                   18
U.S. Postal Service Office of Inspector General            January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service   RARC-WP-13-005




                                          Appendices




                                                   19
U.S. Postal Service Office of Inspector General                                        January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                               RARC-WP-13-005



Appendix A                Players in the Peer-to-Peer Market

Description of Some Current Players

Amazon.com Marketplace
In 2000 Amazon.com launched its Marketplace feature, which lets any Amazon user
post used or new goods to be sold alongside items available new from Amazon. For
example, when shoppers on Amazon search for a book to purchase, they can choose to
purchase directly from Amazon or buy a used copy from another Amazon user, typically
for a lower price. Amazon.com Marketplace provides payment processing and user
feedback profiles similar to eBay’s, and purchases made through Amazon.com are
covered by Amazon’s buyer protection service. Amazon.com is an important part of the
P2P market, by virtue of its overall size, but the majority of its postings are from small
businesses rather than individuals.

Craigslist
Craigslist.org was established in 1999, beginning as an email list for local events.
Craigslist eventually settled on an online classified advertisement format. Serving
classifieds via the Internet incurs a much lower marginal cost than print media, and the
majority of listings on Craigslist are hosted on the service for free. Craigslist charges
only for job ads in some metro areas, New York City apartment listings, and some
categories of services. By creating large, local communities with very low participation
costs and making filtering ads by categories, location, and cost very simple, Craigslist
quickly grew to cover major metro areas in the United States and lead the local
classifieds industry.

Craigslist serves as one of the most informal kinds of e-commerce: users are warned
that Craigslist does not authenticate users' identities, endorse any product or escrow
service, or provide any buyer protection. Craigslist is anonymous, meaning there is no
consistent way of identifying classifieds users or viewing transaction feedback. Most
transactions are completed locally and in cash.

eBay
The company eBay was founded in 1995 and grew to become the world's most
prominent auction website. Connecting dispersed buyers and sellers of durable goods
and media previously was not cost-effective on eBay's scale. By allowing anyone to sell
a variety of items on an open market, eBay created a globally accessible marketplace of
used and unique items. Popular items offered on eBay, according to a recent Wall
Street Journal article, are “soccer balls, used T-shirts, tools, and other goods.” 40 Higher-
priced items bought and sold on eBay include electronics, media, antiques, and
automobiles.


40
     See “PayPal Helps Fuel Revival at EBay,” Wall Street Journal, October 18, 2012.



                                                     20
U.S. Postal Service Office of Inspector General                               January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                      RARC-WP-13-005


Fraud and fragmented payment processing options were early problems in the eBay
marketplace. EBay users who participated in auctions that used money orders, cash,
and checks were vulnerable to several kinds of scams. Buyers who fell prey to common
scams were unable to recover their money because of the finality of these payment
methods. After acquiring payment processor PayPal in 2002, eBay was able to integrate
its marketplace and payment processor, making it more feasible to protect buyers
against fraudulent sellers in transactions for which PayPal is the method of payment.

To deter fraud, users may view a profile that details the feedback history of the buyers
and sellers with whom they interact. EBay processes payments and provides buyer
protection services through PayPal. Insurance and escrow are offered for high-ticket
items such as automobiles and jewelry.

Etsy
Etsy, founded in 2005, provides a marketplace for handmade goods and crafts and has
gained increasing popularity in younger demographic groups. Sellers on Etsy can create
a storefront, integrate items into a catalog that can be browsed or searched, and take
advantage of payment processing services. Etsy offers a buyer protection service for
items paid for through Etsy’s payment processing. Sellers on Etsy pay a commission
and listing fee for hosting their online storefront.

Markets Moving beyond Goods

As the P2P commerce trend grows, new companies are taking the P2P model beyond
goods and into markets like rentals and services, including travel, hospitality, and
personal service. Following are some examples of P2P startups that are growing and
spawning imitators:

Airbnb
Airbnb applies the P2P model to the private hospitality and short-term rental industry.
Properties for rent range from an air mattress in an apartment living room to entire
single-family homes. Users match dates and locations to a listing of properties available
during that time period and can browse photos, prices, and reviews. Airbnb charges a
commission to both the host and guest and processes payments for transactions.
Airbnb insures hosts against property damage up to $1 million. Public profiles for both
renters and property owners provide feedback from past transactions.

Getaround
Getaround has been described as an Airbnb for private car rentals. Vehicle owners may
list their car for rent via the website, with rental rates set on an hourly, daily, or weekly
basis. Drivers are insured by Getaround, which processes payments and takes a
commission from car owners. Getaround takes an advanced approach to identity
verification as a safety mechanism. The company integrates with both Facebook and
local Department of Motor Vehicle systems to check driver records against a user's



                                                   21
U.S. Postal Service Office of Inspector General                                                January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                       RARC-WP-13-005


social network identity, credit report information, and other resources. Getaround makes
money by charging a 40-percent commission to car owners. 41

TaskRabbit
TaskRabbit is an auction-style marketplace for chores. Users can post a task they
would pay to have taken care of, such as delivering flowers, baking cookies, mowing a
lawn, or — the most popular service — putting together new furniture that needs
assembly. Other users bid by posting the price they would accept to complete the
requested task. Users performing tasks must pass a background check and video
screening offered by TaskRabbit. Payments are processed through an iPhone app or
the website, and TaskRabbit charges a commission to those paying for service.

Lending and Investment Platforms
Kiva and Kickstarter are examples of P2P microfinancing sites. These platforms offer
ways for individual entrepreneurs and others to find each other, and for individuals and
groups of individuals to fund startups in return for a share of future profits. Microfinance
sites and peer-to-peer lending are beyond the scope of this paper.




41
  “7 Start-ups Changing Peer-to-Peer Commerce,” INC., August 6, 2012, http://www.inc.com/ss/7-start-ups-
changing-peer-peer-commerce#5.




                                                       22
U.S. Postal Service Office of Inspector General                                              January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                                     RARC-WP-13-005



Appendix B               Sample Current P2P Escrow Fees

Table 5 shows a sampling of fees for escrow services. 42
                                   Table 5: Escrow Fees at P2P Sites

Escrow/Online                     Percentage of                        Additional Fees
Payment Service                   Transaction
PayPal                            2.2% - 3.9%                          $0.30 per transaction +
                                                                       currency exchange fees (if
                                                                       necessary)
Escrow.com                        3.25% - 6.3%                         Disbursement fee ($0 - $60)
OKPay                             1% - 10% (minimum $5,                None
                                  maximum $100)
Safefunds.com                     Tiered fee structure from            Additional fees for wire
                                  $38 to $400                          transfer, electronic payments,
                                                                       and return postage
MiniEscrow                        2.5% - 6.5% ($10                     None
                                  minimum)
2CheckOut (2CO)                   5.5% flat rate                       $0.45 per-transaction fee,
                                                                       $10.99 one-time application
                                                                       fee
Source: Posted escrow fees assembled by U.S. Postal Service Office of Inspector General, December, 2012




42
  PayPal, “Fees,” https://www.paypal.com/webapps/mpp/paypal-fees;
Escrow.com, “Customer Service,” https://www.escrow.com/support/calculator.asp; OKPay,
“Escrow Service,” https://www.okpay.com/en/services/escrow.html;
SAFEFUNDS, “SAFEFUNDS Transaction Fee Schedule August 1, 2012,” http://www.safefunds.com/fees.html;
MiniEscrow.com, “Fees,” https://www.miniescrow.com/fees.php; and
2CheckOut, “Simple Pricing Plan,” https://www.2checkout.com/pricing/.




                                                      23
U.S. Postal Service Office of Inspector General                                      January 14, 2013
Peer-to-Peer Commerce and the Role of the Postal Service                             RARC-WP-13-005



Appendix C                A More Secure Future for P2P Commerce

The current peer-to-peer market is comprised of buyers and sellers, along with
facilitators, as described in the text. Most facilitators handle payment processing and
may offer some form of buyer and seller protection, but even these current attempts
leave significant gaps in the marketplace, including many types of fraud. These gaps, in
turn, limit the trust that potential participants have in the market and therefore prevent
the overall P2P market from growing faster than it would under more optimal conditions.

The Postal Service has a potential new role to play as an enabler, with identity services,
Digital COD, Digital Escrow, insurance, and many current services of interest in P2P.
This potential role would be complementary to the existing market structure, not
competitive.

For shipment of goods, facilitators may offer one specific shipper or several options.
Examples of shippers in today’s market are the Postal Service, United Parcel Service
(UPS), FedEx, and others. Notably, Amazon.com, a large facilitator, offers its own
shipping in some markets.
                   Figure 3: The Role of the Postal Service in Secure P2P Commerce




Source: U.S. Postal Service Office of Inspector General, 2012




                                                        24
